                                                      SENSITIVE BUT UNCLASSIFIED



                                                United States Department of State
                                             and the Broadcasting Board of Governors
                                                    Office of Inspector General
Office of Inspector General

                                                   Office of Inspections

                                 Inspection of Embassy San José, Costa Rica

                                               Report Number ISP-I-12-23A, May 2012




                                                                Important Notice

                              This report is intended solely for the official use of the Department of State or the
                              Broadcasting Board of Governors, or any agency or organization receiving a copy
                              directly from the Office of Inspector General. No secondary distribution may be made,
                              in whole or in part, outside the Department of State or the Broadcasting Board of
                              Governors, by them or by other agencies of organizations, without prior authorization
                              by the Inspector General. Public availability of the document will be determined by the
                              Inspector General under the U.S. Code, 5 U.S.C. 552. Improper disclosure of this report
                              may result in criminal, civil, or administrative penalties.




                                                    SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED



                    PURPOSE, SCOPE, AND METHODOLOGY
                           OF THE INSPECTION

        This inspection was conducted in accordance with the Quality Standards for Inspection
and Evaluation, as issued in 2011 by the Council of Inspectors General on Integrity and
Efficiency, and the Inspector’s Handbook, as issued by the Office of Inspector General for the
U.S. Department of State (Department) and the Broadcasting Board of Governors (BBG).

PURPOSE AND SCOPE

       The Office of Inspections provides the Secretary of State, the Chairman of the BBG, and
Congress with systematic and independent evaluations of the operations of the Department and
the BBG. Inspections cover three broad areas, consistent with Section 209 of the Foreign Service
Act of 1980:

   •   Policy Implementation: whether policy goals and objectives are being effectively
       achieved; whether U.S. interests are being accurately and effectively represented; and
       whether all elements of an office or mission are being adequately coordinated.

   •   Resource Management: whether resources are being used and managed with maximum
       efficiency, effectiveness, and economy and whether financial transactions and accounts
       are properly conducted, maintained, and reported.

   •   Management Controls: whether the administration of activities and operations meets the
       requirements of applicable laws and regulations; whether internal management controls
       have been instituted to ensure quality of performance and reduce the likelihood of
       mismanagement; whether instance of fraud, waste, or abuse exist; and whether adequate
       steps for detection, correction, and prevention have been taken.

METHODOLOGY

In conducting this inspection, the inspectors: reviewed pertinent records; as appropriate, circulated,
reviewed, and compiled the results of survey instruments; conducted on-site interviews; and
reviewed the substance of the report and its findings and recommendations with offices,
individuals, organizations, and activities affected by this review.




                                           i
                              SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED




                                                    United States Department of State
                                                    and the Broadcasting Board of Governors

                                                    Office of Inspector General




                                         PREFACE


     This report was prepared by the Office of Inspector General (OIG) pursuant to the Inspector
General Act of 1978, as amended, and Section 209 of the Foreign Service Act of 1980, as
amended. It is one of a series of audit, inspection, investigative, and special reports prepared by
OIG periodically as part of its responsibility to promote effective management, accountability
and positive change in the Department of State and the Broadcasting Board of Governors.

     This report is the result of an assessment of the strengths and weaknesses of the office, post,
or function under review. It is based on interviews with employees and officials of relevant
agencies and institutions, direct observation, and a review of applicable documents.

      The recommendations therein have been developed on the basis of the best knowledge
available to the OIG and, as appropriate, have been discussed in draft with those responsible for
implementation. It is my hope that these recommendations will result in more effective,
efficient, and/or economical operations.

     I express my appreciation to all of those who contributed to the preparation of this report.




                                           Harold W. Geisel
                                           Deputy Inspector General




                                           ii
                              SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED


                               Table of Contents

Key Judgments                                                         1
Context                                                               2
Executive Direction                                                   3
  Policy Direction and Coordination                                   3
  Internal Management                                                 4
Policy and Program Implementation                                     7
  Political/Economic Section                                          7
  Environment, Science, Technology and Health Affairs Regional Hub    9
  Foreign Assistance                                                 10
  Common Issues                                                      10
  Public Diplomacy                                                   12
  Consular Section                                                   16
Resource Management                                                  19
  Management Section                                                 20
  Rightsizing                                                        20
  Consolidation of Services                                          20
  Financial Management                                               20
  Human Resources                                                    22
  General Services                                                   23
  Facilities Management                                              27
  Safety, Health, and Environmental Management                       27
  Information Management and Security                                27
Management Controls                                                  30
Quality of Life                                                      31
  Community Liaison Office                                           31
  Health Unit                                                        32
  Employee Association                                               32
  Overseas Schools                                                   32
List of Recommendations                                              33
List of Informal Recommendations                                     35
Principal Officials                                                  37
Abbreviations                                                        38




                                       iii
                           SENSITIVE BUT UNCLASSIFIED
                             SENSITIVE BUT UNCLASSIFIED


Key Judgments
   •   The embassy’s policy direction and advocacy, led by the Ambassador, is strong and
       effective, as is the embassy’s commercial advocacy in support of the administration’s
       National Export Initiative.

   •   The embassy’s law enforcement working group and many informal channels have
       ensured strong and effective collaboration among U.S. agencies and sections working to
       help improve Costa Rican public security institutions to counter criminal activity and
       narcotics trafficking.

   •   Economic reporting and analysis is good, but the embassy should increase reporting and
       analysis on political and cross-cutting law-enforcement-related issues, and on regional
       environmental, science, and technology topics.

   •   Public affairs concerns are integrated with all the embassy’s activities and the
       Ambassador and the public diplomacy section lead outreach efforts, including
       presentations through Costa Rican social media that advance U.S. interests in Costa Rica.

   •   The extensive preparatory efforts for ambassadorial outreach activities call for a reduced
       number of engagements to ensure that disproportionate embassy human resources are not
       directed to this aspect of the embassy’s activities.

   •   Consular operations are well managed with excellent customer service. Consular
       managers have leveraged the experience of locally employed (LE) staff to develop a
       strong orientation program and written standard operating procedures. The section is well
       integrated with the rest of the embassy.

   •   The management section operates as a cohesive team, delivering quality services to its
       customers, implementing major Department of State (Department) initiatives and
       leveraging technology to improve its business processes. Rightsizing of the information
       management and financial management offices could yield monetary benefits of at least
       $567,000 without affecting performance.

All findings and recommendations in this report are based on conditions observed during the on-
site review and the standards and policies then in effect. The report does not comment at length
on areas where OIG did not identify problems that need to be corrected.

The inspection took place in Washington, DC, between January 17 and February 3, 2012, and in
San José, Costa Rica, between March 2 and 16, 2012. ( b) (6)




                                          1
                             SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED




Context
        Costa Rica is a middle income country with a relatively homogenous population of 4.5
million that abolished its military in 1948, allowing it to invest resources in a strong system of
social services, including education. Its literacy rate is 95 percent, the highest in Latin America.
Costa Rica is stable, with decades of experience promoting human rights and democracy within
the region and globally. Ex-President Oscar Arias (19861990, 20062010) is a Nobel Peace Prize
winner for his promotion of peace agreements in Central America. Costa Rica’s diversified
economy is mainly nonagricultural. Well over half of foreign direct investment is from the
United States. Costa Rica is notable for its leadership in protecting its environment and
biodiversity, which generates substantial tourism revenues from all areas of the globe.

       Costa Rica exercises diplomatic influence well beyond its relatively small size. U.S.-
Costa Rican relations are positive in many fields and in regional and multilateral fora. The
United States is Costa Rica’s leading trade partner and ranks first among foreign investors.

        Costa Rica is a major tourist destination, averaging about 1 million American tourists
yearly. In addition, an estimated 135,000 Americans, including many retirees and students,
reside in the country. Indicative of a serious problem with crime, the rate of lost or stolen U.S.
passports is among the highest in any foreign country.

        As other governments in the region take measures to combat narcotics traffickers and
transnational criminal organizations, Costa Rica, long an oasis of calm, has become vulnerable to
the incursion of sophisticated criminal operations. The current government’s policy priority is
protecting citizen security, and Costa Rica is integrally engaged on regional security cooperation
with hemispheric partners, including the United States. U.S. investors are also participating in an
innovative public-private partnership to improve customs and border control enforcement.

        The Department is the largest U.S. agency in Embassy San José. U.S. agencies involved
on law enforcement issues include the Drug Enforcement Administration, a Department of the
Treasury Office of Technical Assistance, and the U.S. Coast Guard leading the Office of the
Defense Representative. The Foreign Commercial Service, Food and Drug Administration,
Foreign Agriculture Service, and a regional Animal Plant and Health Inspection Service office
contribute to mission efforts to increase U.S. exports and reduce technical barriers to trade. Costa
Rica is not eligible for development assistance; however, the mission is host to a unit of the U.S.
Agency for International Development’s (USAID) Office of Foreign Disaster Assistance because
of the central location and good infrastructure to respond to regional natural and humanitarian
disasters. Peace Corps will celebrate its 50th anniversary in Costa Rica in 2013 and has more
than 110 volunteers working in community development and English teaching.

        Staffing for Embassy San José consists of 54 Department direct-hires, 35 other agency
direct-hires, 25 local U.S. hires, and 169 LE staff. According to information available to the
inspection team, funding to all agencies at post in FY 2011 totaled $36.8 million. The embassy
was last inspected in 2006.

                                           2
                              SENSITIVE BUT UNCLASSIFIED
                                  SENSITIVE BUT UNCLASSIFIED


Executive Direction
        The Ambassador, with the assistance of the deputy chief of mission (DCM), takes a
strong role in leading a well-integrated, multiagency, country team effort to advocate on behalf
of U.S. policy goals in Costa Rica. Interagency relations are productive and cordial, and the
Ambassador and DCM have worked to promote intensified collaboration among agencies.

Policy Direction and Coordination

        The Ambassador has set forth a clear policy agenda for the embassy in keeping with the
broad U.S. goals for Central America. This agenda features the effort to help improve Costa
Rica’s public security institutions to counter criminal activity and narcotics trafficking so as to
provide a safe and secure environment for Costa Ricans and American visitors and residents. It
also includes the effort to advance U.S. interests in increased exports and shared interests in
economic growth, sustainable energy, and the environment. The Ambassador and DCM
participate actively in the law enforcement working group, and they reinvigorated an economy,
environment, and energy group to promote greater collaboration of embassy offices and agencies
working on their parts of the agenda. The Ambassador and DCM are very knowledgeable about
all these activities and participate actively in the numerous engagements flowing from export
promotion, law enforcement assistance, and sustainable environmental and energy activities. The
Ambassador and the DCM engage frequently with Costa Rican Government and private sector
leaders on these issues and are also active in U.S. interagency policy discussions. For example,
the Ambassador has taken a strong stand in favor of a more regional U.S. approach to issues in
Central America.

        The embassy’s FY 2013 Mission Strategic and Resource Plan (MSRP) was a highly
participative effort to capture and integrate all embassy units and objectives within a single
document. The plan benefits from being comprehensive and including all agencies and offices in
a whole-of-government effort. The whole-of-government effort was also reflected in the tracking
of all U.S. Government assistance to Costa Rica from all sources, by goal, in the embassy’s
internal assistance tracker SharePoint site, which has been provided to Costa Rican authorities
when useful. The diffuse nature of the MSRP goals, however, conveys the impression that the
embassy can pursue a wide variety of goals without making difficult choices among them. In
practice, the embassy makes choices but needs to focus its activities on the greatest U.S. interests
and what is achievable with available resources. The embassy is currently preparing a Mission
Resource Request 1 that focuses on a smaller number of goals.

        The Ambassador and DCM advocate frequently and effectively on behalf of U.S. policy
and on behalf of U.S. economic and business interests in support of the administration’s National
Export Initiative. They have good access to and influence with Costa Rican Government and
private sector leaders. The Ambassador generally engages at the ministerial level and the DCM
at the vice ministerial level. Given the broad array of U.S. interests and expertise in the country
team, it is important that the Ambassador and DCM include, as a regular practice, appropriate

1
  In December 2011, the Department issued 11 STATE 124737, which discontinued the Mission Strategic and
Resource Plan. The Mission Resource Request (3-year strategic plans, with shorter annual resource requests)
replaces the Mission Strategic and Resource Plan beginning with the FY 2014 budget cycle.
                                               3
                                  SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED

country team members in their meetings. The embassy also needs to share insights and
opportunities discussed in official and private sector meetings more widely through official
channels. This issue is addressed in greater detail in the Political/Economic section of this report.

       The Ambassador has made a point of broadening the embassy’s contacts across Costa
Rica’s vibrant private and nongovernmental sectors and has often served as a catalyst for
productive interchange, particularly in the areas of sustainable energy and the environment.

         The Ambassador and DCM take an active interest in the embassy’s public diplomacy
activities and have ensured that public affairs concerns are integrated into all the embassy’s
programs. The Ambassador gives many speeches and remarks throughout Costa Rica and makes
active use of social media to broaden the embassy’s outreach. Substantial effort goes into
preparation, which sometimes has the effect of crowding out other embassy work. The embassy
has decided to designate the DCM to manage priorities and workload for these engagements and
to broaden the number of speakers and participants from within the embassy, as discussed in the
Public Diplomacy section of this report.

       Informal Recommendation 1: Embassy San José should reduce the number of
       ambassadorial events and speeches that require extensive preparatory work and consume
       excessive embassy resources.

Internal Management

        The Ambassador, the DCM, the two office management specialists, and the protocol
assistant work well together. The executive office also provides good supervision and support for
an effective management section. The DCM meets frequently with the management officer and
is well informed on management operations in the embassy. The Ambassador and DCM have
intervened, when asked, with Costa Rican authorities, such as when the local social security
authority ceased to recognize as adequate the embassy’s contribution to the system, raising
concerns among LE staff members about whether they will receive benefits when needed. This
issue is discussed more fully under the Human Resources section of this report.

       The executive office team is fully engaged in reviewing requests from all sections and
agencies under National Security Decision Directive 38 to increase or decrease staff and weighs
appropriately policy, management, and security support factors in its decisions.

Preparation of Ambassador’s Travel and Briefing Material

        The inspection team reviewed the embassy’s internal SharePoint site and conducted
research to determine the extent of the work involved in preparing the Ambassador’s travel and
briefing materials. The Ambassador’s goal is to be adequately prepared for each visit or meeting
by having background material about the issue, biographical material about participants, and
high-quality speeches in English, with Spanish translations.

        The inspection team observed that those called upon to serve as control officers prepare
multiple iterations of itineraries, speeches, and extensive background material. Extensive
instructions on the embassy’s internal SharePoint site outline how to request appointments with
                                           4
                              SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED

the Ambassador, how to prepare remarks for her, and how to handle control officer duties. These
instructions require drafts to be prepared on paper and delivered to the executive office. Better
use of technology could streamline this process and save time. It would also align with and
reinforce the Ambassador’s goals of running an environmentally sustainable embassy.

          Informal Recommendation 2: Embassy San José should make greater use of technology
          in preparing, submitting, and editing material for the executive office.

        Spanish translation of prepared speeches is the responsibility of the control officer; most
control officers call on the LE staff in their sections for help. Because the LE staff may not be
familiar with the substance of the issue, translations must be corrected later in the process. A
designated translator could develop the needed expertise as well as understanding of the
Ambassador’s communication style, and would more efficiently handle translation.

          Informal Recommendation 3: Embassy San José should designate a qualified locally
          employed staff member to translate the Ambassador’s speeches and remarks.

        The Ambassador and DCM demonstrated interest in and support for consular operations.
The Ambassador includes consular outreach in her trips throughout the country and taps consular
officers to serve as control officers, giving them professional development opportunities. The
DCM regularly visits the consular section to hold biweekly meetings with consular management.
Both promote consular outreach to the American business and education community, and they
engage with the Costa Rican Government officials as needed on consular issues.

Morale
          (b) (5)               The Ambassador and the DCM are visible in the embassy and
host events for the community, and the DCM visits offices within the embassy frequently.
(b) (5)
                                       The executive office has committed to provide unambiguous
direction, take on only those activities that can be well prepared and staffed, and give the DCM a
greater role in prioritizing activities.

Entry-Level Professionals

        The DCM engages frequently with entry-level professionals through meetings and by
visiting them in their work spaces. The DCM and other embassy officers also make themselves
available to advise and counsel entry-level professionals on issues such as bidding and
evaluation reports. The embassy gives entry-level professionals career development
opportunities in staffing executive office activities. The OIG team met with an organized group
of entry-level professionals and urged them to broaden the scope of their suggestions for
professional development activities.




                                           5
                              SENSITIVE BUT UNCLASSIFIED
                             SENSITIVE BUT UNCLASSIFIED


Security

       The Ambassador and the DCM provide strong support to the embassy’s security
program. The DCM meets frequently with the regional security officer, understands the issues,
and provides appropriate direction.




                                          6
                             SENSITIVE BUT UNCLASSIFIED
                             SENSITIVE BUT UNCLASSIFIED


Policy and Program Implementation
        Policy advocacy is strong and technical assistance implementation is integrated across
sections and agencies. Interagency relationships are productive and collegial. The embassy often
refers to a wide range of activities in the FY 2013 MSRP to review its work.

        Led by the Ambassador, multiple sections and agencies engage in commercial advocacy.
These efforts have led to total U.S. agricultural exports increasing at a rate of more than 10
percent annually. The embassy also promotes concession arrangements by which construction of
Costa Rican infrastructure projects would be paid by operating fees. An increase in concession
agreements can help expand U.S. goods and services exports beyond the 40 percent share already
held in Costa Rica’s market. Costa Rica’s decision in June 2011 to recognize U.S. Food and
Drug Administration certification as an acceptable standard for the import of U.S. medical
equipment and devices promises to substantially increase sales to Costa Rica. The embassy is
raising awareness about Costa Rica’s regulatory decision to replicate the practice regionally.

Political/Economic Section

        The combined political/economic section includes a narcotics affairs unit. A counselor,
an economic unit chief, and a narcotics affairs unit chief capably lead a team that includes an
office management specialist, three entry-level officers, and an eligible family member, all of
whom employ Spanish skills well. The section benefits from five bilingual, qualified LE staff
members, including an economist. The LE staff has appropriate training and decades of
experience that provide continuity to embassy operations.

        The counselor and unit chiefs are attentive to mentoring and tradecraft coaching even
though the two unit chiefs are themselves relatively inexperienced.(b) (5)            employees
enjoy the diverse range of work and are mutually supportive. (b) (5)



        The economic unit carves out time to produce a steady series of analytic reporting on
local developments, for example, telecommunications deregulation and barriers to entry in
insurance services. Officials in economic agencies welcome these analyses that outline
implications for U.S. companies seeking to penetrate the Costa Rican market. The reports help
measure Costa Rica’s progress in implementing the terms of the Central America Free Trade
Agreement legislation. Washington consumers praise voluntary reporting such as one entitled
“Enter the Dragon,” which addresses aspects of China’s economic penetration in Central
America.

        In balancing its workload, the political unit generates mainly replies on démarche
instructions, short spot reports, and summaries of official visits. Similarly, the narcotics unit
generates cables of monthly project status summaries. For expediency, information and
comments are sent informally by email to a small circle of individuals in the Department or other
agencies rather than by official record traffic that makes information accessible to a wider
audience.

                                          7
                             SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED

         In the inspection survey phase, official consumers commented on a cable about passage
of a bill to raise tax revenue to fund Costa Rican President Chinchilla’s plans to strengthen law
enforcement and security capabilities. That cable was cited to illustrate a desire for follow-on
analytic reports with insight on the dynamics between the Costa Rican administration and its
opposition in the legislature. On cross-cutting topics such as corruption or money-laundering, the
embassy could produce periodic analyses of the scope of issues, the influence of specific Costa
Ricans, and the impact of U.S. assistance.

       Informal Recommendation 4: Embassy San José should increase the analytic content of
       reporting.

       The embassy has made good use of LE staff and eligible family members to meet its
growing workload. The inspection team endorses the recent rightsizing justification for an
additional officer to conduct diplomatic reporting and representation and to help increase
analysis.

Narcotics Affairs Unit

        In late 2010 and early 2011, project management skills were inadequate at a time when
Central American Regional Security Initiative funding surged due to a shift in narcotics
trafficking patterns toward Costa Rica. As a result, the unit was unable to develop scopes of
work for projects for official Costa Rican concurrence or to implement activities in a timely
fashion. Of $13.3 million in multiyear obligated funds in the pipeline, the embassy was able to
disburse funds at a rate of about $1.3 million yearly rather than a desired disbursal pace of $4.5
million yearly.

        The embassy successfully recruited from existing officers an alternative unit chief who
has private sector experience in project management and strong interpersonal skills. In addition,
the law enforcement team has refocused its acquisitions approach in favor of bigger ticket items
and stopped procurement of items that are more appropriately the responsibility of the Costa
Rican Government. As a result, the narcotics affairs unit is well on track to improve
performance.

        Staff from the Bureau of International Narcotics and Law Enforcement Affairs
acknowledged to the inspection team that its funding streams, procurement processes, and
accountability are complex and operationally time consuming for embassy officers. The
inspection team supports the already planned increase in the unit’s staffing by two personal
services contractors and three to four LE positions, funded by the Bureau of International
Narcotics and Law Enforcement Affairs, to accelerate project implementation. The new positions
will be engaged in Bureau of International Narcotics and Law Enforcement Affairs program
activities, with administrative and logistical support purchased from the embassy’s International
Cooperative Administrative and Support Services (ICASS).

Law Enforcement Working Group

       Representatives of more than 10 offices and agencies participate weekly in a law
enforcement working group that strives to avoid duplication and optimize collaboration on
                                           8
                              SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED

programs and projects. They develop strategies to more effectively engage Costa Rican
authorities bilaterally, through regional fora and with other donors, in strengthening its security
and antinarcotics trafficking capabilities.

         The working group prepares advance agendas and disseminates the minutes of each
meeting and other information on the embassy’s internal SharePoint site. The information on the
site is not retained as official records in accordance with 5 Foreign Affairs Manual (FAM) 422,
422.1 a., and 5 FAM 440, using the Department’s Traffic Analysis and Geographic Terms
System. Failure to retain these records risks the loss of the data for future staff at the embassy
and for retrieval by Department users and for historical purposes.

Recommendation 1: Embassy San José should maintain an official file of law enforcement
working group meeting minutes with the appropriate traffic analysis and geographic terms.
(Action: Embassy San José)

Environment, Science, Technology, and Health Affairs Regional Hub

       One officer and three LE employees staff a regional hub, which supports officers with
environment, science, technology, and health affairs (ESTH) responsibilities in 22 embassies in
Central America and the Caribbean. The ESTH hub’s mandate is to boost the capacity of
national authorities and civil societies, including the private sector, to combine economic
development with environmental protection.

        ESTH hub activities are intended to focus on transnational, multilateral, and international
dimensions, but the embassy’s ESTH activities are mostly bilateral. The ESTH hub has travel
and representational funds, and the current hub officer who arrived in summer 2011 has made
two trips in his first 6 months to neighboring embassies. The officer’s performance is rated by
the DCM but reviewed by an officer in the Bureau of Oceans and International Environmental
and Scientific Affairs to underscore the importance of the regional responsibilities.

        The ESTH hub staff engages closely with embassy offices and agencies and the
inspection team observed that most of their time is spent on bilateral activities. Costa Rica is a
leader in environmentally sustainable development, and is an active member of regional ESTH-
related organizations. In contrast, smaller Caribbean and Central American countries are much
less able to protect their natural resources while developing their economies. The ESTH hub staff
is not concentrating the majority of its efforts on assisting countries with the greatest need.

Recommendation 2: Embassy San José, in coordination with the Bureau of Oceans and
International Environmental and Science Affairs, should manage the workload of the
environment, science, technology, and health affairs hub officer and staff to reflect regional
priorities. (Action: Embassy San José, in coordination with OES)

        The inspection team concurs with the February 2012 rightsizing report, which concluded
that the embassy’s request for a second ESTH officer is unwarranted.

        The ESTH hub officer who arrived in August 2011 has oversight responsibility for
several grants and has resources to make grants. The incumbent initially did not have grants
                                           9
                              SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED

officer training. He does not have grants authority. Foreign Service Institute courses are available
to complete the required training. Lack of a grants officer certification risks misuse or poor
accountability of U.S. funds.

Recommendation 3: Embassy San José should require its environment, science, technology,
and health affairs hub officer to complete all appropriate grants officer courses and obtain a
grants warrant. (Action: Embassy San José)

Foreign Assistance

         Costa Rica is not eligible for development assistance. In addition to Central American
Regional Security Initiative funding for technical assistance, the embassy deploys resources from
the Department of Defense’s Southern Command and makes ample use of funds from various
Department functional bureaus and other Federal sources. The Ambassador closely tracks these
activities. With inclusion of public diplomacy scholarships and grants, and resources from other
American entities, the embassy has catalogued in a consolidated assistance tracker database
approximately $40 million of U.S. contributions toward Costa Rica over the years 20102014.

Common Issues

Leahy Human Rights Case Vetting

       The embassy is not complying with the Leahy program to preclude U.S. assistance to
persons implicated in human rights violations. Department of State and Department of Defense-
funded training and equipment can only be provided to properly vetted entities and individuals.
Based on Costa Rica’s reputation over decades of respect for human rights and democratic
processes, the Department’s Leahy working group has designated it for Fast Track processing of
Leahy cases.

        It is unlikely that Costa Rican trainees subject to Leahy vetting have committed human
rights violations. However, sections of the embassy arrange for training of Costa Ricans subject
to Leahy review without vetting trainee names with other elements of the embassy. The Fast
Track status also requires record-keeping procedures. The International Vetting and Security
Tracking database is the Department’s official system of record for Leahy vetting cases. In
September 2010, the Bureau of Western Hemisphere Affairs instructed embassies, including
those in Fast Track countries, to use the system, and to train and register embassy coordinators.
The embassy has not done so.

        The Bureau of Democracy, Human Rights and Labor approves each embassy’s standard
operating procedures for the Leahy program. Standard operating procedures need to be widely
disseminated because of American employee turnover and because numerous representatives of
other agencies may be unfamiliar with the Leahy program.

Recommendation 4: Embassy San José, in coordination with the Bureau of Democracy, Human
Rights and Labor Affairs, should issue an annual management notice explaining the scope of
Leahy vetting and implement standard operating procedures. (Action: Embassy San José, in
coordination with DRL)
                                          10
                              SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED



        The embassy staff does not fully understand Leahy procedures or the role of Leahy
vetting coordinators. Consistent with good management practices, the Bureau of Democracy,
Human Rights and Labor Affairs recommends appointment of a primary and secondary
coordinator so that vetting can proceed if the primary coordinator is unavailable. Each
coordinator is required to complete the Foreign Service Institute’s distance learning course,
International Vetting and Security Tracking system: Leahy Vetting at Post (PP-410).

Recommendation 5: Embassy San José, in coordination with the Bureau of Democracy, Human
Rights and Labor, should designate primary and secondary coordinators for the Leahy vetting
program and should provide the training and authorization to use the International Vetting and
Security Tracking system. (Action: Embassy San José, in coordination with DRL)

Biographic and Leadership Reporting

        The embassy maintains unclassified biographic files on its internal SharePoint site. The
Department desk officer has access to the SharePoint material, but other Department users do
not. In prior years, the embassy established a leadership database on the Department’s classified
system, but the information is outdated.

        The embassy can transfer unclassified material to the Costa Rica page of the
Department’s Diplopedia site, consistent with 2 FAM 113.3 b.(1) guidelines, to make readily
available to policymakers and embassy officers, biographic files on foreign officials or private
individuals who directly or indirectly influence domestic and foreign policy. In addition, to avoid
the loss of knowledge useful to policymakers, embassy officers, on an ongoing basis and
especially before departing for new assignments, can periodically update the leadership profiles
of key Costa Ricans that are on the Department’s classified system.

       Informal Recommendation 5: Embassy San José should enter its unclassified biographic
       information on the Diplopedia OpenNet system and update the leadership profiles on the
       Intellipedia classified system.

        Embassy staff members have extensive Costa Rican contacts in the public and private
sectors. There is no sense that biographic reporting is a job for everyone who has contacts, such
as the narcotics affairs staff and the regional environmental hub, and not just for political and
economic officers.

       Informal Recommendation 6: Embassy San José should include biographic reporting
       and leadership analysis responsibilities in the work requirements statements of all officers
       who do significant amounts of contact work.

Records Management

       The political/economic section maintains files correctly and endeavors to retire official
records to Department archives. Recently, political/economic section files dated from 20022010
were retired. The inspection team found about 5 linear feet of older political/economic files dated
2000. Retention of excessive files presents a security risk. Material meeting the definition of
                                          11
                              SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED

official files should be archived and remaining material should be destroyed, per 5 FAM 433 and
434.2.

Recommendation 6: Embassy San José should archive or destroy all files dating from before
2002 that are held by the political/economic section. (Action: Embassy San José)

         Emails that are not followed by front channel cable reporting can be prepared as record
traffic. Officers are not using the record email function of the State Messaging and Archive
Retrieval Toolset system. Record email is designed to archive emails that should be preserved
for the historical record, such as schedules for visitors, progress reports on programs, and
exchange of views on policy-related matters.

Recommendation 7: Embassy San José should implement a system for employee compliance
with guidance on using the State Messaging and Archive Retrieval Toolset system to archive
email and other correspondence. (Action: Embassy San José)

        In prior years, the regional ESTH hub maintained files correctly. Material, including
electronic mail records, are to be organized by traffic analysis and geography terms, and archived
annually, as stipulated in 5 FAM 440, 5 FAM 441, and 5 FAM 443. The file maintenance has
lapsed in the past year. Activities and work products are not maintained as official traffic in State
Messaging and Archive Retrieval Toolset cables or as record email. Failure to maintain work
products as official records prevents retrieval of the information for foreign policy use and for
historians.

Recommendation 8: Embassy San José should implement a system to verify maintenance and
archiving of files by the environment, science, technology, and health hub office. (Action:
Embassy San José)

Public Diplomacy

        An experienced public affairs officer, assisted by a first-time information officer and an
entry-level cultural affairs officer, supervises a wide range of public diplomacy activities
conducted by 13 LE staff members. Public affairs concerns are woven into all of the MSRP goals
and shape the structure and content of embassy activities. The section has excellent relations and
works closely with all sections and agencies resident in San José.

        Much of the embassy’s outreach is done through or markedly enhanced by creative and
thorough use of social media. Facebook, Twitter, YouTube, and a bilingual Web site are all
extensively promoted. For example, the audience for a recent presentation by an American
astronaut discussing sustainable growth and alternate energy themes was tripled, and expanded
to interested viewers in Central America and South America via live streaming on the Internet
combined with virtual chat room interaction.

        The embassy Facebook community includes some prominent legislators, opinion leaders,
and academics, and at 41,000 followers is larger than the daily circulation of many of San José’s
newspapers and magazines. The embassy’s Facebook penetration statistics and interaction rates
are the third best in the Bureau of Western Hemisphere Affairs. The embassy Twitter feeds
                                          12
                              SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED

cross-promote with Facebook, linking Bureau of International Information and Programming-
generated content, which is then sometimes used by traditional media journalists. Almost all
embassy external activity, from ambassadorial speeches to seminars, training events, and cultural
performances, are heavily promoted on social media.

        While the public diplomacy section analysis recognizes that the traditional media is still
the paramount vehicle for getting the embassy’s themes and messages across to Costa Rican
audiences, the heavy demand on staff to develop social media products can leave insufficient
time for more traditional media placement and meaningful, consistent interaction with key
opinion leaders. Occasionally social media products are less substantive and have more of an
entertainment character. Three LE staff members (or one-quarter of public diplomacy local staff)
work on social media exclusively. The information officer spends close to 40 percent of his time
on social media and the public affairs officer a lesser but significant amount. Interaction of both
officers with the traditional media occurs most often at press events and mostly with mid-level
journalists.

         One-on-one contact work with the editors of major newspapers and the news directors
and managers of television and radio stations is infrequent and of a lower priority. Many of these
critical opinion multipliers are infrequent social media users. The public affairs officer developed
an excellent influence analysis survey of Costa Rican media influencers but has not taken steps
to consistently work with the key individuals identified.

       Informal Recommendation 7: Embassy San José should carefully analyze and monitor
       both social media activity and more traditional approaches to reaching key opinion
       leaders so that the embassy effectively and consistently reaches critical audiences.

         The Ambassador values public diplomacy outreach as a critical embassy activity and is in
fact at the heart of much of the section’s programming effort. The Ambassador is in demand to
make presentations at all major events in Costa Rica. Her presence ensures a high-level audience
and added seriousness to the discussions. There are few speaking opportunities for other senior
embassy officers, including the DCM, which can lead at times to overtaxing the Ambassador’s
schedule or deferring speaking opportunities that she cannot accept.

       The public diplomacy section has made good use of limited speaker offerings from the
Bureau of International Information Programs and some visiting U.S. Government officials.
Many embassies have American speakers programs that give embassy officers the opportunity to
speak at host country high schools and universities to help counteract popular culture
misrepresentations of the United States and its society. More senior officers often fill in for the
Ambassador when appropriate.

       Informal Recommendation 8: Embassy San José should develop an American speakers
       program to give embassy officials, including entry-level officers, an opportunity to speak
       at appropriate venues across Costa Rica.

         Overall, the public affairs officer manages the section well. He oversees a diverse set of
activities, including English teaching programs, journalist training, arts and literature events, and
seminar discussions. His management style includes frequent individual meetings with both the
                                          13
                              SENSITIVE BUT UNCLASSIFIED
                               SENSITIVE BUT UNCLASSIFIED

American officers and with selected LE staff. There are occasional cultural or information
section meetings and ad hoc policy discussions that sometimes include LE staff. There are no
regularly scheduled meetings for the entire staff with the public affairs officer.

          The LE staff includes many highly trained, motivated, and dedicated employees.
(b) (5)


                                                                     Regular meetings in the
section could improve communication about goals and priorities, as well as give the LE staff a
better sense of inclusion.

          Informal Recommendation 9: Embassy San José should convene regularly scheduled
          staff meetings, including all locally employed staff, in its public diplomacy section.

Exchange Programs

        The cultural affairs officer manages a large cultural and exchange program budget of $3.8
million in Bureau of Educational and Cultural Affairs-supported activities, including 20
International Visitor Leadership Program grants, Fulbright and Humphrey programs, and modest
cultural and speaker activities. The exchange program is the embassy’s primary vehicle to build
enduring Costa Rican support for the United States.

        The International Visitor Leadership Program is closely tied to the MSRP goals and
objectives. The DCM chairs the selection committee, and all mission sections and agencies
participate in the nominating and selection process. Judicious use and timing of grantee travel
and Washington incentive programs have enabled the embassy to receive several additional no-
cost grants in each of the past 2 years.

       Costa Rica does not have a Fulbright Commission. Instead the cultural affairs officer
manages Fulbright grants, whose current recipients are both Costa Rican and U.S. senior scholars
and graduate students. Three Fulbright U.S. English teaching assistants are also assigned to
regional university campuses.

       The cultural affairs section manages a number of non-Fulbright educational exchange
programs for Costa Ricans, including a community college initiative, a global undergraduate
exchange program, a summer institute on U.S. history and government participation, and a high
school youth ambassadors program.

        The public diplomacy section has an LE staff alumni coordinator who maintains close
contact with former grantees from the Fulbright and Humphrey programs, the International
Visitor Leadership Program, and other exchange programs. Ex-grantees are frequent attendees of
embassy programs.

Grants Management

       An administrative assistant, who has completed the requisite grants training, maintains
the public diplomacy grants files. The public affairs officer holds current valid grants authority
                                           14
                               SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED

and has undergone grants training. The public affairs officer departs post this summer. Neither
the cultural affairs officer nor the information officer holds current valid grants authority. In FY
2011, Embassy San José issued 35 grants totaling $428,044.

       Informal Recommendation 10: Embassy San José should arrange for at least one
       additional public diplomacy officer to complete the required grants training and obtain
       valid grants authority before the current public affairs officer departs post.

        The files for FYs 2010 and 2011 are in excellent order with all required documentation
present or in the case of a few late, last quarter FY 2011 grants, pending only a final report. The
grants officer’s representative is in the process of obtaining those missing reports.

Information Resource Center

        The embassy’s Information Resource Center is located just inside the entrance of the
embassy and is under the overall direction of the public affairs officer. It is not open to the
public, although the center’s conference room is used by the embassy for occasional video
conferences and press interviews and by various embassy officers for meetings with their
contacts. The staff includes a director, who is a trained research librarian, and the exchange
program alumni coordinator.

        The center director does extensive electronic outreach to a wide range of key embassy
audiences providing article alert services and detailed research on topics tied to the MSRP. Her
efforts are both proactive and responsive to growing requests from Costa Rican audiences. For
example, recently the Costa Rican Legislative Assembly’s head librarian asked for information
on U.S. law and regulation affecting automobile drivers under the age of 18 because the
assembly was considering legislation to lower the legal driving age and wanted to know how the
United States handles this issue. In house, the center provides article alert services to embassy
employees, does speech writing background material research, and offers similar services upon
request for embassy officers’ key contacts. The Mexico City-based regional information resource
officer regularly visits the Information Resource Center and considers its programs among the
best in her region. At the regional information resource officer’s request, the director of San
José’s Information Resource Center hosts and trains directors from other embassy resource
centers in Central America.

        The center director also coordinates the activities of the American and science corners
and liaises with the San José Binational Center. The American Corner, located in the municipal
library of the eastern port city of Limon, has 1,500 active members and hosts 2025 embassy
programs a year. The more modest Science Corner, located in the expanding northern city of
Liberia on the campus of Earth University, operates 68 months a year and has a small but
growing audience of university students and professors. Embassy support to both corners is
modest and appropriate.

        The embassy has long been a partner of the Binational Center in San José, one of the
country’s premier English teaching institutes and the embassy’s principal programming platform
in Costa Rica. The public affairs officer is a member of the center’s board of directors. The
center has an extensive collection of U.S.-oriented materials in its lending library, which also
                                          15
                              SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED

houses an educational counseling office. The embassy directs all educational advising enquiries
to this office. In FY 2011, the center received $228,000 in grants from the embassy and the
Department to conduct cultural programming and educational counseling, buy books, and make
infrastructure improvements.

Consular Section

         A consul general and 2 mid-level officers manage the consular section with 6 entry-level
officers, 2 full-time and 1 part-time cleared American family member positions, and 23 LE staff
members. Six LE staff members in the regional federal benefits unit are supervised by a regional
federal benefits officer and use interview space in the consular section, but have separate office
space elsewhere in the embassy. The consular section is well managed and provides professional
services. A recent customer service survey, based on questionnaires and a suggestion box in the
waiting room, provided positive feedback on the public’s perception of consular operations, with
38 of 39 respondents reporting satisfaction, moving through the process in 2 hours or less. The
inspection team observed clients moving through the process in a steady stream with no long
lines. There was adequate overhead cover and seating, basic but functional signage, bathroom
facilities, snack services, and helpful guard oversight. The work space is adequate, laid out
appropriately for work flow and line-of-sight oversight. Consular officers and LE staff have
cordial relations, facilitating the operation of the section.

        The inspection team observed first-hand the response to a bomb threat in the waiting
room during customer service hours. The integrated, professional response by consular and
security personnel showed good coordination in facing a potentially life threatening situation.

Consular Management

        The consul general has been at post since August 2011. She quickly identified a few areas
needing corrective action and has laid out a clear process for her staff to bring the operations into
compliance. For example, work requirements had been prepared but not entered into the
electronic system; she ensured they were entered prior to the OIG team arrival. She has
established regular staff meetings, which integrate training for the officers and senior LE staff
through case study discussions. All her staff noted that she was approachable, knowledgeable,
organized, and pleasant to work with. Under her leadership, consular staff noted good support
from and interaction with the regional security office, the information management section, the
public diplomacy section, and the management section.

        The consular section manages hundreds of telephone inquiries with the help of the
embassy operators, a pay-for-service nonimmigrant appointment and information line, an LE
staff office manager, a full-time consular telephone receptionist, and call-in hours for American
citizens services and the immigrant visa unit. In addition, an entry-level officer revamped the
consular portion of the embassy’s telephone tree information system. A software program,
adopted as a best practice from another post, tracks inquiries; consular managers analyze the data
to update their frequently asked questions on the Internet Web site. A newly launched newsletter
targeted for the resident American citizen community augments general information on the
Internet. LE staff answers routine email inquiries sent to dedicated email addresses, and one
entry-level officer manages the more complicated correspondence for cases involving
                                          16
                              SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED

congressional inquiries and front office interest. At the time of the inspection, the embassy was
preparing to initiate participation in the Global Support Services system, an appointment,
information and passback system being implemented worldwide by the Bureau of Consular
Affairs.

American Citizens Services

        The American citizens services unit is managed by a mid-level officer with two entry-
level officers, two American family members, and seven experienced LE staff members. This is
a well run unit handling a large, diverse, and complex portfolio expertly and providing excellent
routine and emergency services to both the resident and visiting American citizen population.
Crimes against tourists are frequent; Costa Rica is among the top locations for replacements of
lost and stolen U.S. passports.

        The American citizens services unit performs outreach trips to a large and dispersed
resident American community, supported by the Ambassador in her travel through the country.
The unit is proactive in providing information to the resident community through the innovative
newsletter with active links. A complex portion of the special consular services portfolio
provides services and assistance to elderly Americans who have retired in Costa Rica and death
cases for those without next of kin.

        The American citizens services unit also manages a large judicial cooperation portfolio.
Given the large number of extraditions and returns of fugitives, one LE staff position is funded in
part by the Department of Justice for handling and translating international judicial cooperation
requests. Arrests, child custody cases, kidnappings, and death cases contribute to the range of
emergency services cases, which are handled with professional competence and good customer
service. This year, Costa Rica has been found noncompliant with the Hague Convention on
International Parental Child Abduction. The Ambassador conducted a démarche to the
Government of Costa Rica regarding the finding of noncompliance, reflecting high-level interest
in and attention to this issue.

Nonimmigrant Visas

        The nonimmigrant visa unit is led by a mid-level officer and staffed with four entry-level
officers, one part-time cleared American eligible family member and nine LE staff members.
They adjudicate approximately 55,000 nonimmigrant visa applications annually with an 11
percent refusal rate. The appointment system works effectively and interviews are generally
completed during the morning hours. The waiting period for nonimmigrant appointments for the
past year never extended beyond 16 days and for most of the year was 1 week or less. Officers
have sufficient language skills to conduct interviews in Spanish and one officer uses Chinese
language skills on a regular basis. LE staff members rotate through all the processing functions
and are cross-trained; most visas are sent out by courier the day of the interview.

       The visa chief had fallen behind on visa adjudication reviews; the inspection team
counseled him on the importance of performing the reviews on a daily basis and using them,
along with other management tools, to oversee visa adjudication. The DCM was performing
adjudication reviews on a monthly basis but began doing them weekly when reminded to do so
                                          17
                              SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED

by the inspectors. The consul general had discovered several concerns while performing
adjudication reviews, which are discussed separately in the management controls section of the
report. In addition to ensuring proper adjudication, the reviews can be used for training and
counseling adjudicating officers on trends, interview techniques, appropriate action on system
information, and writing clear concise notes.

       Informal Recommendation 11: Embassy San José should conduct visa adjudication
       reviews on a daily basis.

Visa Referral Program

        The visa referral program is in good order. The Ambassador and DCM generally do not
make referrals; the short waiting times and effective policy for expediting appointments render
many referrals unnecessary. The referral policy has been published, appropriate officers
adjudicate the visas, and documentation is scanned into the system. The consul general identified
a processing error, which had been routine when she arrived, and has taken steps to correct it.
She has been working with the Bureau of Consular Affairs to harness technology to correct
historical data in the system.

Visas Viper

       The consul general or fraud prevention manager participates in the law enforcement
working group, which meets weekly. This group also serves as the Visas Viper committee. All
Visas Viper monthly reports were submitted on time over the year preceding the inspection.
Five cables were sent with Visas Viper submissions during this time period.

Immigrant Visas

       The immigrant visa unit is supervised by the visa chief, and the entry-level officers rotate
through as adjudicating officers. Three experienced LE staff members handle a relatively stable
workload of about 750 cases annually. Immigrant visa appointments are scheduled for
afternoons, making good use of the interview windows and balancing the flow of applicants over
the course of the day.

Fraud Prevention Unit

        The part-time fraud prevention manager is a second-tour officer who reports to the visa
chief. Two LE staff investigators work effectively in reviewing cases referred to the unit. The
fraud profile for visa cases is moderate. The unit supports the American citizens services unit on
the broad range of judicial cooperation cases, extraditions, and returns of fugitives.

        An assistant regional security officer for investigations and one local investigator are
scheduled to be added to the consular section in June. The consular section and regional security
office are already working to delineate areas for coordination and cooperation. The management
officer has prepared plans to renovate adjacent space and create appropriate offices for the new
staff.

                                          18
                              SENSITIVE BUT UNCLASSIFIED
                             SENSITIVE BUT UNCLASSIFIED




Resource Management
               Agency                     U.S.       U.S.    Foreign     Total      Total
                                         Direct-    Local-   National    Staff   Funding FY
                                          Hire       Hire     Staff                 2011
                                          Staff     Staff                            ($)
Department of State
 D&CP                                         26         3         24       53    $3,293,006
 CA                                            10        0           0      10      $487,801
 MRV                                            0        5          9       14       $53,592
 ICASS - TRADITIONAL                            3       14         80       97    $4,978,600
 ICASS - OBO                                                                        $221,700
 ICASS - DS                                                                         $384,500
 Public Diplomacy                               3        1         12       16    $1,205,810
 Diplomatic Security                            4        1          8       13    $1,607,003
 Marine Security Guards                         6                   4       10      $168,120
 OBO/Facility Manager                          1                             1       $17,045
 Representation Funding                                                              $44,309
 Federal Benefits Unit                         1                    6        7      $115,000
 INL                                                                                $500,000
Department of Agriculture
 Foreign Agriculture Service                   2                    5        7      $356,485
 Animal Plant Health Inspection                                                     $779,586
 Service                                       1                    3        4
HHS/Food and Drug Administration               4                    2        6      $314,200
Department of Defense
 Office of the Defense Representative          7         0          3       10      $800,000
Department of Justice
 Drug Enforcement Administration               8         1          3       12      $491,314
Foreign Commercial Service                     1                    5        6      $332,802
USAID
 Office of Foreign Disaster Assistance         6                    2        8    $1,072,575
Peace Corps                                    4                    3        7    $2,190,186
Treasury Advisors                              2                             2       $80,000
Other Foreign Assistance                                                                   0
All Programs - Detailed List Available                                           $17,305,000
Totals                                        89        25        169      283   $36,798,634




                                         19
                             SENSITIVE BUT UNCLASSIFIED
                             SENSITIVE BUT UNCLASSIFIED


Management Section

        The management section is cohesive, customer oriented, competent, and capable. It is
well-led and delivers good services to its customers. The U.S. direct-hire and LE staff
complement one another and project a unity of effort in their planning and conduct of business.
OIG workplace and quality of life survey results exceeded the averages of other posts in most
major management areas. Respondents rated both overall management section performance and
overall customer service at 4.32 on a 5-point scale, which compared favorably with other posts’
averages of 3.77 and 3.76, respectively.

        Routine management operations function generally well, thereby allowing the
management staff to focus on more strategic activities. These include extensive implementation
of the Department’s Collaborative Management Initiative, process mapping and improvement,
fulfillment of ICASS council and committee requirements, and leveraging of technology to
improve operations and knowledge sharing. With few exceptions, the management section is
appropriately staffed and takes advantage of eligible family member employees to support U.S.
direct-hire and LE staff in several units. The ICASS Service Center’s 2012 Staffing Analysis,
which measures workload per LE staff member, showed the vast majority of cost centers well
within the standard range, indicating satisfactory levels of productivity.

Rightsizing

        The Department completed a rightsizing review of U.S. Mission Costa Rica on February
27, 2012. The inspection team agreed in large part with the conclusions of the review but
recommends in this report that the embassy seek additional reductions in its financial
management LE staff by making use of the Department’s Post Support Unit for processing
vouchers. The team also noted that the Department review projects a total of three information
resources management U.S. direct hires, which is one fewer than currently on staff. The
inspection team concurs and makes a related recommendation in the Information Management
and Security section of this report.

Consolidation of Services

        The embassy is subject to recent cable guidance from the Department (State 11450, dated
February 7, 2012) that seeks to consolidate services and thereby establish one administrative
support platform at overseas posts. The cable directs chiefs of mission and USAID directors to
complete action on the consolidation of 15 agreed administrative services by September 2012. It
also directs consolidation of household furniture, furnishings, and appliance pool services, with
specific implementation instructions to follow. The embassy is aware of its upcoming
responsibility to address redundancies, such as lack of a furniture pool.

Financial Management

       The financial management unit is staffed with a first-time financial management officer
supported by 14 local national employees. Averages on the OIG workplace and quality of life
questionnaire give the unit high scores across the board.

                                         20
                             SENSITIVE BUT UNCLASSIFIED
                             SENSITIVE BUT UNCLASSIFIED


Staffing

        At the time of the inspection, the embassy was planning to eliminate one vacant voucher
clerk position. Despite this reduction, the unit is still overstaffed when compared with its
counterparts in similarly sized embassies. The recently completed rightsizing review of the
embassy also found the financial management unit to be well above the norm for missions of
comparable size in the same operating environment. Even though the review supported
elimination of two positions by 2016, the inspection team concluded that there is even more
scope for position savings.

        At the time of the inspection, the embassy was not using Post Support Unit services to
process vouchers, even though the costs are roughly half of what the embassy spends to process
a voucher. The embassy plans to begin outsourcing travel voucher processing to the Post Support
Unit. However, there are opportunities for the embassy to outsource other voucher processing
and thus generate additional cost savings. A review of voucher processing, in coordination with a
staffing review and analysis, could lead to the reduction of several positions in the financial
management unit and in so doing bring the unit’s strength closer to staffing levels in comparable
sized embassies.

Recommendation 9: Embassy San José should process all travel vouchers through the Post
Support Unit and implement a plan to outsource other categories of vouchers to the Post Support
Unit. (Action: Embassy San José)

Recommendation 10: Embassy San José should implement a plan to rightsize staffing in its
financial management unit based on workload analysis, outsourcing of voucher processing, and
comparable staffing at similarly sized embassies. (Action: Embassy San José)

Cashiering

       The cashier is a 40-year veteran of embassy service and has been the Class B cashier for
32 years. The financial management officer performed, and an inspector observed, a cash
reconciliation, with no anomalies found. The cashier is authorized a (b) (5) cash advance that
seems appropriate considering the amount of business she conducts. A local bank performs
accommodation exchange. The last cashier monitor’s review was performed in 2008 and no
major defects were recorded. The next cashier monitor visit will be in 2013.

       The inspection team noted early in the inspection that the embassy appeared to have an
excess of subcashiers. During the inspection, the number of subcashiers was reduced by three.
Subcashier reconciliations are performed in a timely manner.

International Cooperative Administrative and Support Services

       The ICASS council and budget committee meet frequently to address issues of mutual
concern among agencies at the embassy. The council maintains minutes and reviews budgets on
a timely basis. The ICASS structure and mechanisms work well in San José. The inspection team
reminded the ICASS council and the management officer to comply with the new annual
assessment requirements outlined in 6 Foreign Affairs Handbook (FAH)-5 H-222.3-5 and 3.6.
                                         21
                             SENSITIVE BUT UNCLASSIFIED
                             SENSITIVE BUT UNCLASSIFIED

This report, drafted by the ICASS council chairperson and the management officer, is due to the
Ambassador by June 1 annually.

Utility Usage

       The embassy has a number of environmental initiatives under way in the chancery,
including extensive recycling. Nevertheless, there is scope for promoting energy cost savings in
U.S. Government-owned and leased residences. Utility usage at some residences appears
reasonable, but there are quite a few residences where utility usage seems high. Not all
employees are made aware of the costs associated with their utility use.

       Informal Recommendation 12: Embassy San José should expand its utility cost
       monitoring to provide all employees information concerning their monthly utility usage
       and offer helpful tips to employees regarding ways to conserve energy and reduce costs.

Human Resources

        The human resources unit consists of five LE staff members, which is appropriate for an
embassy of this size. The unit is supervised by the management officer in San José. An American
regional human resources officer from the Florida Regional Center visits regularly to provide
advice and assistance to the embassy. A memorandum of understanding completed in March
2011 details the responsibilities of both the embassy and the regional center. Some embassy
employees lament the fact that San José does not have a resident human resources officer, but the
inspection team concluded that the current system is working well.

        The human resources unit performs its tasks efficiently and effectively. Evaluation
reports for Americans and LE staff are completed on time. The LE staff handbook is current; the
awards program is largely automated and managed on the embassy’s internal SharePoint site;
overtime is approved in advance; and an adequate training plan is in place.

Locally Employed Staff
       (b) (5)



                            For example, the embassy sought and received authorization to
automatically increase the salaries of FSN grade 1 employees when Costa Rica increases its
minimum wage scale and employees’ salaries have fallen below the minimum wage. The
embassy also worked with the Department to establish a flexible work schedule for LE staff.
Most choose to work 40 hours within a four-and-a-half day workweek. Many LE staff cited this
schedule as proof that management cares about its needs.
       (b) (5)                                                         allegation by the Costa
Rican social security system that the embassy, and by extension its employees, owes the system
$360,000 in arrears. The embassy has done its best to resolve this issue and has obtained a
diplomatic note from the Costa Rican Ministry of Foreign Affairs confirming that a $1.5 million
payment made to the Costa Rican social security system in 2010 constituted full and final
                                         22
                             SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED

payment under the Costa Rican Workers Protection Law. Yet practical problems persist. For
example, the embassy cannot purchase duty-free gasoline for government-owned vehicles, and
LE staff health entitlement cards are now stamped with the word “delinquent” in Spanish. As a
result, some LE staff members have reported denials of service as they attempt to use the Costa
Rican health system. The embassy has been forthcoming and transparent with the LE staff while
continuing to work with the Foreign Ministry and the Department to resolve this issue.

Eligible Family Member Employment

        Eighteen eligible family member positions are available at the embassy. At the time of
the inspection, 15 of the positions were filled. The embassy has reported no issues relating to
family employment, and the Family Liaison Office in Washington gives high marks to the
embassy for its efforts to promote these employment opportunities.

Rest and Recuperation Travel

         Embassy employees do not receive a post differential allowance, but are authorized rest
and recuperation travel twice during a 3-year tour, with Miami as the designated continental U.S.
destination. The last Department approval in the embassy files was dated 2001. During FY 2011,
the embassy spent almost $50,000 on rest and recuperation travel for Department employees and
has budgeted $124,000 for this expense in FY 2012. At the time of the inspection, the
Department was in the process of conducting a worldwide analysis of posts to determine
eligibility for rest and recuperation travel.

General Services

        The general services unit is leanly staffed but very productive. The subunits perform well
and customer satisfaction is high. OIG survey results in six of eight general services areas
exceeded the average scores for surveys of other posts. Implementation of the Integrated
Logistics Management System in 2008 has been beneficial for both the property management
and procurement units. It also provides a means for units to interface at key junctures in the
supply chain management system, facilitating coordination between procurement, receiving,
property control, financial management, and the customer. The system enforces process
discipline and allows visibility by participants along the way, thereby strengthening internal
controls. The inspection team did note some areas for improvement, particularly in property
management and motor vehicle operations.

Property Management

        With only six LE staff members supervised by a general services assistant who is an
eligible family member, the property unit provides full and satisfactory service to its customers.
Records indicated major inventory control problems in FY 2008 and embassy actions to
remediate them. Current property management is generally sound. Since the FY 2008
certification that reported a nonexpendable inventory shortage of 8.76 percent, the embassy has
maintained much better control over property. Despite the improvement, the embassy continues
to show shortages, though they remain consistently below the 1 percent threshold that requires a
property survey report. In FY 2011, the shortage totaled $27,275 and included two laptop
                                          23
                              SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED

computers and several computer central processing units. The Property Disposal Authorization
and Survey Report, form DS-132, did not indicate that the property management officer
conducted any investigation to verify facts and determine any corrective actions necessary, as
required by 14 FAM 416.5-1(B)b.

Recommendation 11: Embassy San José should comply with all the Property Disposal
Authorization and Survey Report (DS-132) requirements, including investigation of inventory
shortages found during the annual inventory process and survey board referral, if appropriate.
(Action: Embassy San José)

         The receiving clerk is familiar with his duties and performs them satisfactorily, though
the inspection team noted some areas for improvement that could speed up the process and
improve internal controls. First, many items arrive without any reference to the corresponding
purchase order. The receiving clerk must comb through pending orders to identify the one that
relates to the item and to facilitate receiving and final delivery to customers.

       Informal Recommendation 13: Embassy San José should implement a standard
       operating procedure to instruct vendors to correlate the items they ship with purchase
       order numbers.

       Second, the receiving clerk does not routinely followup on purchase orders for which
items are not received. For example, the oldest purchase order dated back almost 1 year and still
remained outstanding, though 14 FAH-1 H-313.5 instructs receiving clerks to periodically
inform the procurement staff of pending and partial orders for which the delivery date has
passed. Doing so could generate action to contact the vendor or otherwise determine the status of
the procurement to ultimately fulfill the customer’s request.

       Informal Recommendation 14: Embassy San José should implement a plan to follow up
       on the status of ordered items that are not received as part of its supply chain
       management process.

         Third, some items bypass the central receiving point, which is located at the warehouse
facility. Some items arrive via pouch; local vendors sometimes deliver items directly to the
embassy rather than the receiving point. Items therefore are not processed as received or entered,
if appropriate, into the nonexpendable property system for accountability. Guidance in 14 FAH-1
H-312 encourages the receiving activity to be centralized to the extent feasible to ensure that
deliveries are properly documented upon receipt.

       Informal Recommendation 15: Embassy San José should implement a plan to centralize
       receiving to the extent feasible at its warehouse facility.

Motor Pool Operations

        Motor vehicle operations have shortcomings in a number of areas that range from policy
to preventive maintenance and from use of forms to the control of fuel. The very high customer
satisfaction level reflected in the OIG work and quality of life survey belies the deficiencies in
management of basic functions. The unit partially implemented the Department’s Vehicle
                                          24
                              SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED

Registration and Maintenance computer application in 2006, but not completely enough to take
advantage of automation or increase efficiency. Using only the dispatching module and
continuing to manually manage the same function, the motor pool succeeded only in creating
redundancy. By foregoing the capability of tracking fuel consumption and preventive
maintenance, the unit was left to manage other aspects of fleet management by manual means
that have not worked well.

        Daily use and inspection of vehicles is documented in accordance with 14 FAM 436.1
using a Daily Vehicle Use Record (OF-108), which must be maintained for all vehicles at the
embassy. The inspection team examined a sampling of forms and found them generally
complete, though most were missing the signature of the passenger. The motor pool supervisor,
however, indicated problems accounting for the use of vehicles dedicated to offices such as the
regional security office and the Marine security guard detachment, as operators of those vehicles
do not use the OF-108 as required. In addition to being noncompliant with regulations, failure to
use the form hinders monitoring and control of maintenance, fuel and oil consumption, and
purpose of use (business versus other authorized use). It also hampers internal controls as the
motor vehicle accountable officer is tasked by the same FAM citation to periodically review the
forms for each vehicle.

Recommendation 12: Embassy San José should implement a plan that results in all vehicle
operators using the Daily Vehicle Use Record (OF-108) in accordance with regulations. (Action:
Embassy San José )

       The embassy outsources vehicle maintenance to commercial firms. The LE staff
supervisor could not explain or produce evidence of a defined or structured maintenance
program other than a safety inspection that is required by local authorities. There appeared to be
a means to record oil changes and tune ups after the fact, but no schedule that would facilitate
planning and budgeting as required by 14 FAH-1 H-819. An effective preventive and scheduled
maintenance program will forestall breakdowns, provide more dependable vehicles, and likely
extend their useful lives.

Recommendation 13: Embassy San José should implement a scheduled vehicle preventive
maintenance and inspection plan. (Action: Embassy San José )

        The embassy operates a gasoline fuel pump for government-owned and personal vehicles.
The pump is automated, requiring operators to have a device and personal identification number
in order to operate it. The system records quantity pumped and attributes it to the user’s device.
The automated system obviates the need for a pump attendant but creates a degree of fraud risk.
At the same time, the motor pool began only recently to generate Monthly Fuel/Oil Consumption
Records (DS-1775) that track fuel consumption against odometer readings to determine miles per
gallon, which could provide an indicator of whether fraud is occurring at the unattended pump.
The motor pool manager does not conduct a monthly review of the reports as recommended by
14 FAH-1 H-814.2-2, which is a particularly important internal control measure absent a pump
attendant.




                                          25
                              SENSITIVE BUT UNCLASSIFIED
                             SENSITIVE BUT UNCLASSIFIED

Recommendation 14: Embassy San José should implement a plan for monthly review of the
Monthly Fuel/Oil Consumption Records (DS-1775) as a means to detect mechanical problems or
theft or misappropriation of fuel. (Action: Embassy San José)

Procurement

        The procurement unit is proficient and coordinates well with the property management
unit and the financial management section at necessary points along the supply chain
management process. The Integrated Logistics Management System gives the unit visibility into
receiving and voucher actions, which facilitates monitoring, delivery and eventual close-out of
purchase orders. The unit maintains a reasonable number of formal contracts and maintains files
in a neat and complete manner. The inspection team spot-checked 25 percent of the files and
found them to contain the required Federal Acquisitions Regulation clause 52.222-50,
Combating Trafficking in Persons. Examination of files did not produce evidence that the
contracting officer’s representatives had undergone the minimum of 40 hours of formal training
that 14 FAH-2 H-113 c. requires. Failure to complete the training violates a U.S. Government-
wide requirement that ensures representatives are prepared to manage the technical aspects of the
contract.

Recommendation 15: Embassy San José should implement a plan to train contracting officer’s
representatives as required by regulation. (Action: Embassy San José)

Housing and Real Property

        The embassy took appropriate steps to comply with the 2006 OIG recommendation that it
bring its housing inventory into compliance with space standards. The inspection team noted that
6 of the total 68 employees listed on a Real Property Application report were overhoused by a
factor of 10 percent or more. The inspection team spot-checked records for the top two, and
found that the Bureau of Overseas Buildings Operations had granted waivers for the housing
assignments.

        The embassy’s housing handbook does not contain a basic or supplemental list of
furniture, furnishings, appliances, and equipment that the U.S. Government will provide to
residences in accordance with 15 FAM 721. Such a list would provide customers with a clear
understanding of what they should expect and inform their decisions about what to pack. Having
a list would also facilitate the establishment of an interagency furniture pool in anticipation of
future guidance from the Department and USAID Joint Management Board Implementing
Committee.

       Informal Recommendation 16: Embassy San José should establish a basic and, as
       appropriate, a supplemental list of furniture, furnishings, appliances, and equipment to be
       issued to U.S. Government-held residences.

       Examination of lease files indicated that some documentation was missing or incomplete.
Specifically, embassy regional security and occupational safety and health officer approvals, as
required by 15 FAM 312.5 and 312.6, were not evident. Initial security inspection

                                         26
                             SENSITIVE BUT UNCLASSIFIED
                             SENSITIVE BUT UNCLASSIFIED

recommendations were often in the files, but compliance and approval were not. The facilities
maintenance section kept files on its inspections, but copies were not in the lease files.

Recommendation 16: Embassy San José should document security and safety inspections and
approvals of residences. (Action: Embassy San José )

Customs, Shipping, and Travel

        OIG survey results for the customs and shipping unit and the travel unit were slightly
lower than the average for other embassies surveyed. These results appear largely attributable to
delays in clearing shipments through customs and registering vehicles—both local bureaucratic
impediments. The general services unit has worked for several years to cultivate good
relationships with local officials and develop solutions that have cut processing time from about
6 months down to 3 weeks for household effects and other shipments. It also has arranged for
temporary operating permits for vehicles that arrive with valid registration and license, thereby
giving employees use of their vehicles pending completion of permanent registration. The
embassy acknowledged the assistance of the Office of Foreign Missions as it has sought to
resolve such issues that affect employee morale.

Facilities Management

        A small in-house team augmented by contract services provides facilities maintenance
support to the embassy. The U.S. direct-hire facilities specialist effectively supervises the
program, which makes extensive use of the Department’s Work Orders for Windows application
to manage unscheduled and preventive maintenance. The unit also uses eServices and
participates in the Collaborative Management Initiative metrics and analysis in its efforts to
improve processes and performance. The unit is pursuing cost savings through energy
conservation and is aware of disparities in energy consumption among residences with similar
family sizes. What remains is to develop a program that uses the data to achieve results, which is
addressed by an informal recommendation in the Financial Management section of this report.

Safety, Health, and Environmental Management

        The Safety, Health, and Environmental Management program functions adequately.
Accident reports are on file and include corrective action or steps to prevent recurrence. The
embassy has named an LE staff member to be the assistant post occupational safety and health
officer. This employee was scheduled to attend training in April 2012. Management attention to
the safety program needs improvement. The Safety, Health, and Environmental Management
committee met most recently in January 2012 but did not meet during 2011, despite the
requirement prescribed in 15 FAM 933.2 to meet at least semiannually. The 2006 OIG report
cited the same deficiency.

Recommendation 17: Embassy San José should conduct Safety, Health, and Environmental
Management committee meetings at least semiannually. (Action: Embassy San José)

Information Management and Security

                                         27
                             SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED

        The information management (IM) program is well run and is successful in leveraging
technology to streamline business processes within the various sections of the embassy. The
program’s internal SharePoint site was recognized as the best at the 2011 State Department
SharePoint User's Conference. The site offers business solutions, such as an application that
tracks U.S. assistance in Costa Rica and another application for tracking embassy representation
funds. These are examples of the program’s innovative effort to provide its customers efficient
and cost-effective automated solutions.

        The embassy’s IM officer works collaboratively with the other embassy sections to
provide excellent customer service. Including the IM officer, 4 U.S. direct-hire and 12 LE staff
members efficiently handle the daily operations of the IM program. The program consists of two
major operational components. The information systems center handles unclassified information
processing services. The information program center is responsible for classified information
processing, mail, pouch, radio, telephone, and switchboard services. IM services were rated
highly in the OIG workplace and quality of life survey.

         The inspectors reviewed the operational and security aspects of the program and found
the program adheres to the Department’s information resources management and security
guidelines. However, the team found problems that need management attention in areas of
staffing rationalization in the embassy communication center, delays in planning for embassy
communication center renovation, and improper network cabling.

Information Program Center Staffing

        The information program center is staffed with two direct-hire specialists. One IM
specialist is responsible for the day-to-day operations of the classified information processing
center. The second IM specialist assists with managing the center’s operation. The center
supports 68 computer users and 36 classified workstations. Because of the Department’s effort to
standardize and centralize the management of its information technology, the level of effort to
manage classified information processing overseas is declining. Recognizing these changes, the
Department is conducting a workforce survey to evaluate the overseas staffing structures.

        Notwithstanding the workload associated with management of the embassy’s radio, mail,
pouch, telephone, and switchboard services, the information program center’s daily operation
does not require two full-time direct-hire IM specialists. The inspection team concluded from
interviews with the staff and a review of their duties that elimination of the entry-level IM
specialist position number 5141001, when the incumbent’s tour is completed in 2013, will save
an estimated $567,000.

       Further, the 2011 rightsizing review of the embassy projected one less IM staff member
in 2016 than is currently in place. Eliminating one position will bring the staffing level in line
with the rightsizing review.

Recommendation 18: Embassy San José, in coordination with the Bureau of Human Resources
and the Bureau of Western Hemisphere Affairs, should eliminate the information management
specialist position number 5141001. (Action: Embassy San José, in coordination with DGHR
and WHA)
                                          28
                              SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED



Post Communications Center Restoration

        In December 2011, the fire suppression sprinkler system in the Post Communications
Center (PCC) failed after the system was modified in conjunction with PCC renovation work,
which cost approximately $250,000. The incident occurred at the final stage of the renovation
work, causing excessive water damage to the renovated workspace, including to the equipment,
electrical wiring, drywall, ceiling, carpeting, and the fire alarm system.

        The embassy staff is working with the Bureau of Overseas Buildings Operations to
address the physical damage caused to the PCC, but as of the date of the inspection there is no
project plan that defines stakeholders, scope of work, and funding sources for equipment
replacement, or a renovation timeline. A documented plan will facilitate communication among
stakeholders and define roles and responsibilities to complete the renovation in a timely manner.
During this inspection, Embassy San José was still waiting for guidance from the Bureau of
Overseas Buildings Operations on the next steps to restore the PCC.

Recommendation 19: The Bureau of Overseas Buildings Operations, in coordination with
Embassy San José and the Bureau of Information Resource Management, should develop a
project plan for the renovation of the post communications center, including replacement of the
fire protection system. (Action: OBO, in coordination with Embassy San José and IRM)

Network Distribution Room Cabling

        The network cables in the chancery second- and third-floor network distribution rooms,
which support the embassy’s classified and unclassified networks, are not organized and labeled
in accordance with 5 FAH-9 H-382 and FAH-9 H-383. A mixture of outdated and new network
connectors is used and the cluttered cables make network switch management difficult. In 2008
the Bureau of Information Resource Management upgraded the cabling infrastructure work
based on a survey done by the embassy. However, the work performed did not fully address all
the cabling deficiencies in these rooms. The current condition of the cables makes it difficult to
trace cables and resolve network problems.

Recommendation 20: Embassy San José should organize and appropriately label cabling in the
network distribution rooms. (Action: Embassy San José)




                                          29
                              SENSITIVE BUT UNCLASSIFIED
                             SENSITIVE BUT UNCLASSIFIED


Management Controls
        Management controls at the embassy are strong, with minor exceptions. The Ambassador
has designated the management officer to be the management controls coordinator. The July
2011 annual chief of mission management controls statement of assurance report revealed no
internal control weaknesses that warranted reporting to Washington. The embassy uses the OIG
questionnaires to conduct periodic risk assessments to improve internal controls, and in fact,
used them to prepare the last statement of assurance.

Consular Management Controls

        The inspection team noted that the consul general and consular managers had made many
improvements to consular management controls since their arrival in summer 2011. Accountable
consular officers and alternates, as well as consular subcashiers and alternates, were properly
trained and designated in writing. Controlled supplies were correctly stored and transfers of
accountability were up-to-date. The consul general has a line of sight into the separate cashier
booth. There were no discrepancies in the collections. The accountable consular officer for cash
was keeping the required daily records at the time of the inspection. He was also conducting the
required periodic reconciliations of machine readable visa fees against nonimmigrant visa
applications.

        The inspection team found that the subcashier was routinely depositing consular fees with
the Class B cashier the morning after collection. Under the provisions of 7 FAH-1 H-771.2-5, the
accountable consular officer must ensure that the consular fees are delivered and receipted prior
to the end of the Class B cashier’s business day.

Recommendation 21: Embassy San José should implement standard operating procedures for
depositing its consular fees with the Class B cashier and preparing receipts for the fees on the
day of collection. (Action: Embassy San José)

        The consul general brought to the attention of the inspection team several incidents of
visa lookout accountability anomalies that she had identified, including failure to take required
fingerprints and inappropriate dismissal of a category one hit. The consul general took
appropriate action and counseled the responsible officers, emphasizing the importance of correct
procedures. The inspection team reviewed with the consul general and the visa chief the
requirement to report visa lookout accountability violations.




                                         30
                             SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED


Quality of Life
         Morale at the embassy is mixed, but scores on the workplace and quality of life
questionnaires indicate that overall morale falls below the average for approximately 50 prior
inspections. On a scale of 1 to 5, the overall average for community morale was 3.18. Reasons
for this score vary and include traffic safety, crime, and the high cost of living. However, it
appears that one consistent basis for low morale is employees’ unrealistic expectations about
living in Costa Rica.

Community Liaison Office

        The community liaison office is staffed by a coordinator who works 32 hours per week,
and an assistant who works 16 hours per week. The latter position had just been vacated at the
time of the inspection, and several candidates had expressed interest. The coordinator had sought
approval from the ICASS council for additional hours for a new assistant, but this request was
denied for budgetary reasons. The coordinator completed formal training in March 2012.

       The community liaison office coordinator listed sponsorship, family member
employment, and events planning as priorities. The embassy has a sponsorship policy dating
from 2008. It is not clear that this helpful information is widely available to bidders, newcomers,
or potential sponsors.

       Informal Recommendation 17: Embassy San José should update its sponsorship policy
       and post it on the embassy’s internal SharePoint site.

        The United States has a reciprocal agreement with Costa Rica allowing for eligible
family members to work in the local job market. A global employment advisor under contract
with the Family Liaison Office had recently visited the embassy and conducted resumé and
interview training. The embassy has a good record of eligible family member employment. The
coordinator is aware of six people seeking jobs, two of whom will arrive in the summer transfer
cycle.

        Information about community liaison office activities is available on the embassy’s
internal SharePoint. High-quality information for newcomers dates from 2009 and could be
updated as needed before the summer transfer cycle to help newcomers plan for their tours of
duty.

       Informal Recommendation 18: Embassy San José should update its information for
       newcomers on its internal SharePoint site.

        The coordinator has sponsored successful large events that include the LE staff. Some
community members reported they do not attend many of the smaller events, saying they are
mostly aimed at families with children. The coordinator is addressing the need to arrange events
that appeal to various demographic groups.



                                          31
                              SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED


Health Unit

       The health unit is staffed with a locally hired Foreign Service health practitioner and an
administrative assistant. The embassy recently hired an eligible family member nurse to cover
gaps when the health practitioner is on leave or in training. The embassy also employs, via
contract, two local doctors who spend a total of 10 hours a week in the health unit as liaisons
between the LE staff and the local health system.

       Regional support for San José is timely and sufficient. The health unit is well appointed
and well equipped, except for an electrocardiogram machine that is over 20 years old.

       Informal Recommendation 19: Embassy San José should replace its electrocardiogram
       machine.

Employee Association

        During the inspection, Embassy San José was in the process of shutting down its
employee association, known locally as the United States Cooperative Exchange. Initially, the
association sought to remain operational, but to scale down its operation to avoid various
reporting requirements that it deemed onerous. The Office of Commissary and Recreation
Affairs, however, did not grant the requested relief, so the association decided to cease
operations altogether. During the inspection, the association board was completing the
liquidation checklist provided by Washington, having already sold its inventory. Remaining
tasks include a final audit of the association. The embassy also plans to contribute some funds to
the community liaison office and remit the remainder to the Office of Commissary and
Recreation Affairs.

Overseas Schools

       Parents are satisfied with school choices from among six options; two are Department-
supported schools. (b)(5)(b)(6)
                                      its popularity may dwindle after a planned future move
when commutes for children will be longer. Embassy representatives sit on the boards of three
schools, (b)(5)(b)(6)




                                          32
                              SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED


List of Recommendations
Recommendation 1: Embassy San José should maintain an official file of law enforcement
working group meeting minutes with the appropriate traffic analysis and geographic terms.
(Action: Embassy San José)

Recommendation 2: Embassy San José, in coordination with the Bureau of Oceans and
International Environmental and Science Affairs, should manage the workload of the
environment, science, technology, and health affairs hub officer and staff to reflect regional
priorities. (Action: Embassy San José, in coordination with OES)

Recommendation 3: Embassy San José should require its environment, science, technology,
and health affairs hub officer to complete all appropriate grants officer courses and obtain a
grants warrant. (Action: Embassy San José)

Recommendation 4: Embassy San José, in coordination with the Bureau of Democracy,
Human Rights and Labor Affairs, should issue an annual management notice explaining the
scope of Leahy vetting and implement standard operating procedures. (Action: Embassy San
José, in coordination with DRL)

Recommendation 5: Embassy San José, in coordination with the Bureau of Democracy,
Human Rights and Labor, should designate primary and secondary coordinators for the Leahy
vetting program and should provide the training and authorization to use the International
Vetting and Security Tracking system. (Action: Embassy San José, in coordination with DRL)

Recommendation 6: Embassy San José should archive or destroy all files dating from before
2002 that are held by the political/economic section. (Action: Embassy San José)

Recommendation 7: Embassy San José should implement a system for employee compliance
with guidance on using the State Messaging and Archive Retrieval Toolset system to archive
email and other correspondence. (Action: Embassy San José)

Recommendation 8: Embassy San José should implement a system to verify maintenance and
archiving of files by the environment, science, technology, and health hub office. (Action:
Embassy San José)

Recommendation 9: Embassy San José should process all travel vouchers through the Post
Support Unit and implement a plan to outsource other categories of vouchers to the Post Support
Unit. (Action: Embassy San José)

Recommendation 10: Embassy San José should implement a plan to rightsize staffing in its
financial management unit based on workload analysis, outsourcing of voucher processing, and
comparable staffing at similarly sized embassies. (Action: Embassy San José)

Recommendation 11: Embassy San José should comply with all the Property Disposal
Authorization and Survey Report (DS-132) requirements, including investigation of inventory
shortages found during the annual inventory process and survey board referral, if appropriate.
(Action: Embassy San José)
                                              33
                             SENSITIVE BUT UNCLASSIFIED
                             SENSITIVE BUT UNCLASSIFIED

Recommendation 12: Embassy San José should implement a plan that results in all vehicle
operators using the Daily Vehicle Use Record (OF-108) in accordance with regulations. (Action:
Embassy San José )

Recommendation 13: Embassy San José should implement a scheduled vehicle preventive
maintenance and inspection plan. (Action: Embassy San José )

Recommendation 14: Embassy San José should implement a plan for monthly review of the
Monthly Fuel/Oil Consumption Records (DS-1775) as a means to detect mechanical problems or
theft or misappropriation of fuel. (Action: Embassy San José)

Recommendation 15: Embassy San José should implement a plan to train contracting officer’s
representatives as required by regulation. (Action: Embassy San José)

Recommendation 16: Embassy San José should document security and safety inspections and
approvals of residences. (Action: Embassy San José )

Recommendation 17: Embassy San José should conduct Safety, Health, and Environmental
Management committee meetings at least semiannually. (Action: Embassy San José)

Recommendation 18: Embassy San José, in coordination with the Bureau of Human
Resources and the Bureau of Western Hemisphere Affairs, should eliminate the information
management specialist position number 5141001. (Action: Embassy San José, in coordination
with DGHR and WHA)

Recommendation 19: The Bureau of Overseas Buildings Operations, in coordination with
Embassy San José and the Bureau of Information Resource Management, should develop a
project plan for the renovation of the post communications center, including replacement of the
fire protection system. (Action: OBO, in coordination with Embassy San José and IRM)

Recommendation 20: Embassy San José should organize and appropriately label cabling in
the network distribution rooms. (Action: Embassy San José)

Recommendation 21: Embassy San José should implement standard operating procedures for
depositing its consular fees with the Class B cashier and preparing receipts for the fees on the
day of collection. (Action: Embassy San José)




                                         34
                             SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED


List of Informal Recommendations
        Informal recommendations cover operational matters not requiring action by
organizations outside the inspected unit and/or the parent regional bureau. Informal
recommendations will not be subject to the OIG compliance process. However, any subsequent
OIG inspection or on-site compliance review will assess the mission’s progress in implementing
the informal recommendations.

Informal Recommendation 1: Embassy San José should reduce the number of ambassadorial
events and speeches that require extensive preparatory work and consume excessive embassy
resources.

Informal Recommendation 2: Embassy San José should make greater use of technology in
preparing, submitting, and editing material for the executive office.

Informal Recommendation 3: Embassy San José should designate a qualified locally
employed staff member to translate the Ambassador’s speeches and remarks.

Informal Recommendation 4: Embassy San José should increase the analytic content of
reporting.

Informal Recommendation 5: Embassy San José should enter its unclassified biographic
information on the Diplopedia OpenNet system and update the leadership profiles on the
Intellipedia classified system.

Informal Recommendation 6: Embassy San José should include biographic reporting and
leadership analysis responsibilities in the work requirements statements of all officers who do
significant amounts of contact work.

Informal Recommendation 7: Embassy San José should carefully analyze and monitor both
social media activity and more traditional approaches to reaching key opinion leaders so that the
embassy effectively and consistently reaches critical audiences.

Informal Recommendation 8: Embassy San José should develop an American speakers
program to give embassy officials, including entry-level officers, an opportunity to speak at
appropriate venues across Costa Rica.

Informal Recommendation 9: Embassy San José should convene regularly scheduled staff
meetings, including all locally employed staff, in its public diplomacy section.

Informal Recommendation 10: Embassy San José should arrange for at least one additional
public diplomacy officer to complete the required grants training and obtain valid grants
authority before the current public affairs officer departs post.

Informal Recommendation 11: Embassy San José should conduct visa adjudication reviews
on a daily basis.


                                          35
                              SENSITIVE BUT UNCLASSIFIED
                             SENSITIVE BUT UNCLASSIFIED

Informal Recommendation 12: Embassy San José should expand its utility cost monitoring to
provide all employees information concerning their monthly utility usage and offer helpful tips
to employees regarding ways to conserve energy and reduce costs.

Informal Recommendation 13: Embassy San José should implement a standard operating
procedure to instruct vendors to correlate the items they ship with purchase order numbers.

Informal Recommendation 14: Embassy San José should implement a plan to follow up on the
status of ordered items that are not received as part of its supply chain management process.

Informal Recommendation 15: Embassy San José should implement a plan to centralize
receiving to the extent feasible at its warehouse facility.

Informal Recommendation 16: Embassy San José should establish a basic and, as appropriate,
a supplemental list of furniture, furnishings, appliances, and equipment to be issued to U.S.
Government-held residences.

Informal Recommendation 17: Embassy San José should update its sponsorship policy and
post it on the embassy’s internal SharePoint site.

Informal Recommendation 18: Embassy San José should update its information for
newcomers on its internal SharePoint site.

Informal Recommendation 19: Embassy San José should replace its electrocardiogram
machine.




                                         36
                             SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED


Principal Officials

                                                             Name       Arrival Date
Ambassador                                   Anne Slaughter Andrew             12/09
Deputy Chief of Mission                              Eric G. Nelson             8/10
Chiefs of Sections:
  Consular                                           Robin L. Haase            7/11
  Political/Economic                          Julie Schechter Torres           8/09
  Management                                              Leo Voytko          12/10
  Public Affairs                                       Mark Tauber             9/09
  Environmental Affairs                               Alain Norman             7/11
  Regional Security                                  Patrick Mitchell          8/11
Other Agencies:
  Agricultural Counselor                            Kevin N. Smith              9/08
  Senior Commercial Officer                        William B. Smith             7/08
  Senior Defense
  Representative                           Troy J. Vest, CDR, USCG              6/10
  Drug Enforcement
  Administration Attaché                        Charles P. Springer             7/09
  U.S. Agency for International
    Development – Office of                                                   10/01
  Foreign Disaster Assistance                       Tim Callaghan
  Peace Corps                                        Steven Dorsey             7/09
  APHIS Officer in Charge                             Eric Hoffman             7/08
  HHS/FDA                                           Michael Rogers            12/11




                                       37
                           SENSITIVE BUT UNCLASSIFIED
                SENSITIVE BUT UNCLASSIFIED


Abbreviations
DCM             Deputy chief of mission

Department      U.S. Department of State

ESTH            Environment, science, technology, and health

FAH             Foreign Affairs Handbook

FAM             Foreign Affairs Manual

ICASS           International Cooperative Administrative and Support Services

IM              Information management

IRM             Bureau of Information Resource Management

LE              Locally employed

MSRP            Mission Strategic and Resource Plan

OIG             Office of Inspector General

PCC             Post Communications Center

USAID           U.S. Agency for International Development




                            38
                SENSITIVE BUT UNCLASSIFIED
   SENSITIVE BUT UNCLASSIFIED




FRAUD, WASTE, ABUSE,
OR MISMANAGEMENT
of Federal programs hurts everyone.




           Contact the
   Office of Inspector General
          HOTLINE
to report illegal or wasteful activities:



             202-647-3320
             800-409-9926


         oighotline@state.gov


             oig.state.gov


      Office of Inspector General
       U.S. Department of State
            P.O. Box 9778
        Arlington, VA 22219




                           1
  SENSITIVE BUT UNCLASSIFIED
